INFORMATION SECURITY PROGRAM
     Department of Transportation

      Report Number: FI–2006–002
      Date Issued: October 7, 2005
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit of Information Security                      Date:    October 7, 2005
           Program, Department of Transportation
           Report Number: FI-2006-002
  From:                                                            Reply to
                                                                   Attn. of:   JA–20
           Kenneth M. Mead
           Inspector General
    To:    Chief Information Officer

           This report presents the results of our annual audit of the information security
           program at the Department of Transportation (DOT). In accordance with the
           Federal Information Security Management Act of 2002 (FISMA), our objective
           was to determine the effectiveness of DOT’s information security program by
           measuring progress made in (1) implementing information security requirements
           since last year, (2) correcting air traffic control system security deficiencies, and
           (3) enhancing information technology (IT) investment management controls. We
           also provide input to DOT’s annual FISMA report by answering questions
           specified by the Office of Management and Budget (OMB). Our input to DOT’s
           annual FISMA report is in Exhibit A.

           Similar to last year, we tested a representative subset of DOT systems, including
           contractor-operated or -maintained systems that had undergone systems security
           certification reviews in order to determine whether DOT had complied with
           Government standards for (1) assessing system risks, (2) identifying security
           requirements, (3) testing security controls, and (4) accrediting systems as able to
           support business operations. We also performed more detailed reviews of the
           Department’s process for managing remediation of known security weaknesses.

           Our audit was conducted in accordance with Generally Accepted Government
           Auditing Standards prescribed by the Comptroller General of the United States
           and included such tests as we considered necessary to detect fraud. Details of our
           scope and methodology are described in Exhibit B.
                                                                                                                       2


INTRODUCTION
FISMA requires Federal agencies to identify and provide security protections
commensurate with the risk and magnitude of harm resulting from the loss of,
misuse of, unauthorized access to, or modification of information collected or
maintained by or on behalf of the agency. DOT maintains one of the largest
portfolios of IT systems among Federal civilian agencies; it is therefore essential
that the Department protect these systems, along with their sensitive data. In fiscal
year (FY) 2005, DOT’s IT budget totaled about $2.7 billion.

The Department has 12 Operating Administrations (OA). However, two OAs
were reorganized during FY 2005: the Bureau of Transportation Statistics and the
Research and Special Programs Administration have been replaced by the Pipeline
and Hazardous Materials Safety Administration and Research and Innovative
Technology Administration. This reorganization enables the Department to more
efficiently coordinate and manage the Department’s extensive research efforts and
to expedite implementation of cross-cutting, innovative technologies.

Ownership of computer systems was also realigned between the two new
component agencies. For FY 2005, the Department is reporting a total of
451 computer systems—about 7 percent fewer than last year—as a result of its
continued effort to consolidate systems for FISMA reporting. Among the systems
the Department maintains and operates is the air traffic control system, which the
President has designated as part of the nation’s critical infrastructure. Other
systems owned by the Department include safety-sensitive surface transportation
systems and financial systems that disburse over $50 billion in Federal funds each
year. Systems inventory counts for FY 2004 and FY 2005 in each OA are detailed
in Exhibit C.


RESULTS IN BRIEF
Last year, we reported that DOT had made a concerted effort to correct security
weaknesses identified in FY 2001, FY 2002, and FY 2003, years in which the
Department reported its information security program as a material weakness
under the Federal Managers’ Financial Integrity Act (FMFIA). 1 Progress noted in
last year’s report included increased oversight of IT investment management and
security controls, strengthened protection of DOT’s network infrastructure against

1
    A material internal control weakness is a significant deficiency in an agency’s overall information systems security
    program or management control structure or within one or more information systems that (1) significantly restricts
    the capability of the agency to carry out its mission, or (2) compromises the security of its information, information
    systems, personnel, or other resources, operations, or assets. The risk is great enough that the agency head and
    outside agencies must be notified and immediate or near-immediate corrective action must be taken (OMB M-05-15,
    “FY 2005 Reporting Instructions for the Federal Information Security Management Act and Agency Privacy
    Management,” June 13, 2005).
                                                                                                                       3


intrusion, and increased security certification reviews. In addition, FAA
committed to taking aggressive action to enhance air traffic control security. Based
on the progress made and management’s commitment, DOT’s information
security program was downgraded to a reportable condition last year. 2

In 2004, we also identified issues that required continued management attention,
such as improving the quality of security certification reviews and making
significant progress in enhancing air traffic control system security. DOT has
worked to improve the quality of certification reviews and is now performing
quality assurance reviews of systems already certified. Although the Department
has continued to make progress in these areas, much remains to be done, and new
challenges have also emerged. In addition, the Department did not implement a
number of critical corrective actions 3 during FY 2005, partially due to turnover of
key security personnel in the Office of the Chief Information Officer.

Meanwhile, FAA did not start in earnest to initiate aggressive actions to correct
previously identified air traffic control security deficiencies until April 2005, after
the Inspector General issued a letter to the Federal Aviation Administrator
expressing concerns over the slow pace of FAA’s corrective actions. FAA’s
progress improved, but since this effort only began in April, its overall progress in
better securing air traffic control system operations for FY 2005 was insufficient.

In recent years, our office has issued several reports recommending that FAA act
quickly to correct security deficiencies found in air traffic control systems. 4
Providing adequate security over these facilities is critical because the President
has designated the air traffic control system part of the nation’s critical
infrastructure due to the important role commercial aviation plays in fostering and
sustaining the national economy and ensuring the safety and mobility of citizens.
In addition, our office is in the process of issuing two new reports identifying
deficiencies in security over FAA’s system for maintaining air traffic control
surveillance, navigation, and communications equipment and deficiencies in
physical security at air traffic control facilities. Despite all the advanced

2
  A reportable condition is a security or management control weakness that does not rise to the level of a significant
   deficiency, yet is still important enough to be reported to internal management (OMB M-05-15, “FY 2005 Reporting
   Instructions for the Federal Information Security Management Act and Agency Privacy Management,” June 13,
   2005).
3
   These include developing standards for secure configuration of Oracle databases used in many major Departmental
   systems, ensuring timely correction of computer vulnerabilities identified, and directing OAs to relocate their system
   recovery sites that are too close to DOT Headquarters.
4
   OIG Report Number FI-2004-078, “Audit of Security and Controls over En Route Center Computer Systems,”
   August 9, 2004. OIG Report Number FI-2005-003, “Audit of Security and Controls over Technical Center
   Computer Systems,” November 5, 2004. Most OIG reports can be accessed on our website: www.oig.dot.gov. The
   Department has determined that these reports contain Sensitive Security Information (SSI) as defined by 49 CFR
   Part 1520. Accordingly, they are not available for public inspection or copying. The regulations provide that, under
   the Freedom of Information Act (FOIA) and the Privacy Act, should a document contain both SSI and non-SSI
   information, the Department may disclose the document with the SSI information redacted, so long as this
   information is not otherwise exempt from disclosure under FOIA or the Privacy Act.
                                                                                                             4


technologies deployed in today’s environment, adequate physical security is
essential to ensuring safe and uninterrupted air traffic control services to the
American public. In FY 2005, the Government Accountability Office also
identified the need to enhance computer security protection in air traffic control
systems and physical security protection at air traffic control facilities. 5

The most significant challenges are summarized below.


The Department Faces a Challenge in Recertifying Systems Security
While Enhancing the Quality of Certifications
Last year, the Department increased the percentage of systems completing security
certification reviews from 33 percent to over 90 percent. However, DOT has a
significant challenge ahead in recertifying systems while improving the quality of
system certifications. OMB requires Federal systems security to be recertified at
least every 3 years because systems are constantly changed to support evolving
business and technical needs.

Unlike last year, the Department did not have a planned schedule or designated
resources to perform this task during FY 2005. In late August, we brought to
management’s attention that about 15 percent of Departmental systems were
overdue for recertification. Since then, the Department engaged in a very
ambitious plan to recertify the security of these systems by the end of the fiscal
year. Committing resources to recertifying systems security will be a continuing
challenge to the Department, with more than 300 systems due for recertification in
the next 2 years.

The quality of the security certification reviews improved during FY 2005. Last
year, we reported deficiencies such as inadequate risk assessments, a lack of
evidence of security tests, and systems accredited by inappropriate officials. This
year our sample review of 20 system security certification reviews identified fewer
deficiencies in the 6 certification reviews completed in FY 2005. Nonetheless,
improving the quality of the certification reviews will be a major challenge to the
Department because of the large number of systems that will need to be recertified
in 2006 and 2007.




5
    GAO-05-712, “Information Security: Progress Made, but Federal Aviation Administration Needs to Improve
    Controls over Air Traffic Control Systems,” September 26, 2005.
                                                                                                                       5


The Department Needs To Better Manage Correction of Systems
Security Deficiencies
During FY 2005, the Department collected detailed data to track and prioritize
efforts to correct identified security weaknesses, as required by OMB.6 With this
more complete view, it became clear that the Department needs to strengthen its
system security correction activities to ensure that weaknesses are being fixed in a
timely manner and that the most critical weaknesses are corrected first. Currently,
the Department has about 3,000 weaknesses that need to be fixed. However,
management could not effectively prioritize their correction because 1,620 of the
weaknesses are missing information such as their severity and the cost needed to
correct them. However, some of these weaknesses clearly require immediate
action. For example, one of the pending actions is to enhance password security
protection in a system that contains privacy information. This inexpensive fix
would significantly reduce the risk of unauthorized access.

We understand that management cannot tackle every deficiency at once, especially
in today’s tight budget environment. Management has to make realistic decisions,
balancing system importance, risk, and cost in prioritizing remediation efforts.
Yet items requiring immediate attention should not be allowed to be delayed. We
found that more than 300 identified deficiencies had passed their target completion
dates by more than 6 months. Some of these overdue items were deemed to have
a severe impact on the integrity of program operations, such as causing adverse
effects on communications among air traffic control facilities.


FAA Did Not Take Aggressive Actions To Enhance Air Traffic Control
Systems Security
Last year FAA committed to completing security reviews of all operational air
traffic control systems—at en route, approach control, and airport terminal
facilities—within 3 years and to identifying a cost-effective alternative to restoring
essential air service in the event of prolonged service disruption at an en route
facility.

During FY 2005, FAA took limited steps in fulfilling its commitment to address
prior air traffic control systems security recommendations. FAA fell short of fully
addressing its commitments, as identified below:

• FAA collected system security information on only about half of the systems
  used to support en route (high-altitude) air traffic services. En route centers
  currently rely on approximately 30 systems to deliver safe and efficient air
6
    The process employed to track and prioritize security remediation efforts is referred to as a plan of action and
    milestones (POA&M) in DOT’s FISMA reporting to OMB.
                                                                                                                6


      traffic control services. Since information was collected only on half of the
      systems, other critical systems, such as the system that routes critical weather
      and flight plan data to all en route centers, were not reviewed.

• FAA has not analyzed the information collected and therefore has not
  determined what remediation work is needed to better secure operational
  en route systems.

• FAA officials did not perform any independent testing on-site.             As
  demonstrated by the Government Accountability Office and our reports, testing
  is the key to identifying potential security breaches. Performing independent
  testing on high-risk systems is also required by FISMA. 7

Finally, while FAA has identified a cost-effective alternative to restoring essential
en route air service in case of prolonged service disruption, it is years away from
implementing the alternative. Implementing the selected alternative is a
complicated endeavor but critical to supplementing FAA’s current business
continuity strategy, one that has worked well in the past in dealing with temporary,
less severe service disruptions.


Departmental Oversight of Major System Investments Needs To Be
Enhanced
Last year, we reported that the Departmental Investment Review Board needed to
perform more substantive and proactive reviews of IT investments managed by
individual OAs. This remains a challenge, especially for air traffic control
modernization projects, which account for over 80 percent of the Department’s IT
budget.

This year, the Board reviewed investment projects managed by various OAs,
including FAA. While projects managed by most OAs have benefited from the
Board’s oversight, the Board has had little positive impact on complicated air
traffic control projects, which are still experiencing significant cost increases and
schedule delays. We reviewed 16 FAA major acquisitions and found that
9 projects had experienced schedule delays of 2 to 12 years and 11 projects had
experienced cost growth of about $5.6 billion (from $8.9 billion to $14.5 billion).
The bulk of the cost growth represented by the $5.6 billion occurred before the
establishment of the new Air Traffic Organization and had been building for some
time without being recognized. Some of the major investment projects have

7
    FISMA requires agencies to meet the minimum Government security standards developed by the National Institute
    of Standards and Technology (NIST). NIST Special Publication 800–37, “Guide for the Security Certification and
    Accreditation of Federal Information Systems,” requires independent security testing when reviewing high-risk
    systems.
                                                                                 7


experienced persistent cost and schedule problems, such as the Wide Area
Augmentation System and the Standard Terminal Automation Replacement
System.

Nine years after Congress passed acquisition reform for FAA, exempting it from
compliance with Federal acquisition regulations, air traffic control modernization
projects are still experiencing performance problems, along with the cost increases
and schedule delays. Further, FAA’s acquisition process has stayed on the
Government Accountability Office’s high-risk list since 1995. Meanwhile, FAA
continues to initiate new, costly, and complex IT modernization projects. This
year, two new multibillion-dollar FAA investment projects—FAA
Telecommunications Infrastructure and En Route Automation Modernization—
went forward to OMB without reliable cost, schedule, and other project
information. OMB rejected the budget submissions and asked the Board to
reexamine business cases for these investment projects.

We are concerned that the Board’s review of major FAA IT investment projects is
not providing value-added services as intended and is facing the risk of becoming
a paperwork exercise that provides little substantive value to the Secretary. There
are two basic reasons for this.

• First, there is a lack of clarity about the Board’s role in reviewing major FAA
  investment projects. The Clinger-Cohen Act of 1996 requires the Secretary to
  implement a process for “maximizing the value and assessing and managing
  the risks of the information technology acquisitions of the executive agency.”
  The Board was created as part of this process and is tasked with advising the
  Secretary whether to continue, modify, or terminate major IT investments.
  However, FAA has frequently cited its independent acquisition authority,
  based on provisions in the Department’s Appropriations Act for Fiscal Year
  1996, to argue that the Board should play only a limited role in overseeing
  FAA investments. The provision in the Appropriations Act exempted FAA
  from compliance with the Federal acquisition regulations and key Federal
  procurement laws to help make the acquisition process more timely and cost-
  effective.

   The issue that needs to be resolved is whether FAA’s exemption from
   compliance with the Federal procurement regulations also applies to
   management oversight required by the Clinger-Cohen Act. Until this issue is
   resolved, it is our opinion that the Board’s continued “review” of FAA’s
   multibillion-dollar investment projects will not result in “maximizing the value
   and assessing and managing the risks of the information technology
   acquisitions” and will impede the Secretary’s ability to fulfill his Clinger-
   Cohen Act requirements.
                                                                                 8


• Second, to be effective, the Board needs to perform more substantive, in-depth,
  analytical reviews of progress, problems, and risks associated with these
  complicated investments. The current level of support available to the Board is
  not sufficient to allow the members to make responsible decisions about these
  investments. The Board relies on the “prep group” process, during which OA
  representatives perform a cursory review of each other’s investment projects.
  This “prep group” is led by an Associate Chief Information Officer with the
  support of one mid-level staff person who came on board only 4 months ago.
  Obtaining adequate support to research potential project shortfalls in cost,
  schedule, and performance is essential if the Board is to perform oversight to
  maximize the value and to manage the risks of major IT investments in the
  Department.

We are making a series of recommendations on pages 21 through 23 of this report
to help the Department strengthen its information security program and improve
oversight of its multibillion-dollar annual IT investments. The office of the
Departmental Chief Information Officer (CIO) agreed with our findings and
recommendations. We have requested that DOT provide written comments
describing the specific actions it will take to implement these recommendations.


FINDINGS

Systems Security
Last year, the Department made a concerted effort to increase the percentage of
systems completing the security certification review from 33 percent to over
90 percent. However, the Department did not make the same commitment to this
task during FY 2005. As a result, we found that about 15 percent of Departmental
systems were overdue for recertification in late August. While the quality of the
security certification review has improved during FY 2005, continued
management attention is needed to ensure that quality is improved during system
recertification reviews. Further, DOT needs to improve the process it uses in
correcting identified security weaknesses to ensure that weaknesses are prioritized
and corrected in a timely manner.


Systems Security Reviews Need To Be Updated
Conducting systems security certification reviews is not a one-time challenge but
an ongoing business requirement. OMB requires Federal systems security be
recertified at least every 3 years because systems are constantly changed to
support evolving business and technical needs. Expired security certification and
accreditation reviews present little value to management. About 90 percent of all
                                                                                                            9


DOT systems will have to undergo security certification review between FY 2005
and FY 2007, as shown in Table 1.


       Table 1. DOT Systems Security Inventory Certification
                        as of August 2005

      OA*              Total            Systems Left           Systems To Be          Systems To Be
                      Systems              To Be               Recertified in         Recertified in
                                        Recertified in            FY 2006                FY 2007
                                          FY 2005
   FAA                   263                 40                        22                   155
   FHWA                   25                 ---                        5                    19
   FMCSA                  18                 ---                        6                    11
   FRA                    21                 ---                        3                    16
   FTA                     9                   1                        3                      2
   MARAD                  12                 ---                        4                      2
   NHTSA                  40                 31                         7                    ---
   OST                    47                   3                       30                    11
   PHMSA                   3                 ---                       33                    ---
   RITA                   28                 ---                        3                      8
   SLSDC                   1                 ---                        1                    ---
   STB                     2                 ---                        2                    ---
       Total             469                 75                       119                   224
  * The full name of DOT Operating Administrations and system inventory counts for FY 2004 and FY 2005 is
    contained in Exhibit C.

However, in FY 2005, the Department did not assign a priority to completing
security recertification reviews. In late August, we found that 75 (15 percent) of
Departmental systems no longer had valid security certifications because the
reviews were over 3 years old. We brought the issue to management’s attention,
and the Department engaged in an ambitious plan to recertify these systems by the
end of the fiscal year. Our sample review of 20 systems also identified 3 systems
with expired security certifications. The Department needs to assign a priority to
completing security recertification reviews during FY 2006 and FY 2007, when
over 300 systems will need to be recertified.

OMB also requires agencies to have systems security recertified sooner than every
3 years if the system has experienced major changes. In our sample review, we
found four systems that had experienced major changes since they were certified
and accredited, but none had been recertified. For example, one Maritime
Administration system was moved from a contractor’s site to the DOT
Headquarters building in 2004, which completely changed its computing
environment and thus could create new vulnerabilities. However, the Maritime
                                                                                                                10


Administration does not plan to recertify the system until August 2006, when the
current certification review expires.


Quality of Certification Reviews Needs To Be Enhanced
Last year, we found deficiencies in the quality of systems security certification
reviews, such as inadequate risk assessments, lack of evidence of security tests,
and lack of proper senior management involvement in accrediting systems to
support program operations. During FY 2005, the CIO Office increased its
oversight of the quality of certification reviews, as we recommended. OMB also
requires agencies to comply with standards established by the National Institute of
Standards and Technology (NIST) in conducting security certification reviews
after. 8 We sampled 20 systems security reviews—14 performed before May 2004
and 6 after. Our test results indicated that the quality of certification reviews has
improved in the newer certification reviews (see Table 2).

     Table 2.           Quality of Systems Security Certification Reviews

      Number of Systems                Risk            No Evidence          Weakness Not                Not
            Sampled                 Assessment         of Security          Summarized               Accredited
           (Number)                  Missing             Testing                (3)                  by Proper
                                        (1)                (2)                                        Official
                                                                                                        (4)
    Certified Before                       2                  6                     13                   0
    May 2004 (14)
    Certified After                        0                  1                      4                      1
    May 2004 (6)
     Total                                 2                  7                     17                      1


(1) Risk Assessment. Government security standards require agencies to perform
    security risk assessments based on potential impact to the confidentiality,
    integrity, and availability of respective system operations.       The risk
    assessment performed for two systems before May 2004 lacked such
    specificity. A risk assessment is key because it determines the level of
    security protection and the degree of testing needed to certify a system as
    adequately secured commensurate with associated operational risks.



8
    Federal Information Processing Standards Number 199, “Standards for Security Categorization of          Federal
    Information and Information Systems,” and NIST Special Publication 800–37, “Guide for the Security Certification
    and Accreditation of Federal Information Systems.” The special publication will become part of the minimum
    Government security standards in December 2005.
                                                                                     11


(2) Security Testing. While a systems security certification review is valid for
    3 years as long as no major changes are made to the system, agencies are also
    required to perform limited annual security testing between certification
    reviews. Since security testing is a critical component of the certification
    review process, we independently tested a basic password security control in
    four systems—three certified before May 2004 and one after. All these
    systems were certified as having the ability to “lock out” users after they
    entered three incorrect passwords. However, two of the three systems
    certified before May 2004 failed our testing.

(3) Summarizing Weaknesses. Last year, we recommended that the CIO Office
    develop guidance for OAs to use in summarizing security test results that
    would assist accrediting officials when they decide whether to allow the
    system to operate. This area still requires more management attention.
    Security weaknesses were not summarized in both old and new certification
    reviews, inhibiting the ability of accrediting officials to easily evaluate
    remaining risks. The final step in a security certification and accreditation
    review is for the authorizing official to accept (or accredit) the system as
    adequately secured, commensurate with its associated risks to support
    business operations. Authorizing officials need to know what remaining risks
    and corrective actions are planned before approving any system for operation.

(4) Proper Certification and Accreditation. Last year, we recommended that the
    CIO Office modify Departmental guidance to ensure that accreditation is done
    by appropriate senior officials. However, we continue finding problems in
    this area. One of the six certification reviews performed after May 2004 was
    accredited by a mid-level system manager, not the senior official responsible
    for the program office using the system. Obtaining system accreditation from
    the correct authorizing official is critical because this official has to accept the
    system risk (or impact) on business operations and also be able to allocate
    budget resources to secure the system.


More Attention Needed To Correct Known Security Weaknesses
In reviewing DOT’s plans of action and milestones to correct known security
weaknesses, we identified several concerns with the process.

• There are about 3,000 known security weaknesses. However, management has
  not assessed the severity of more than half of them (1,600) or provided cost
  estimates for fixing the vast majority of these weaknesses. Without this
  information, management cannot effectively prioritize the use of limited
  resources so that the most significant weaknesses get fixed first. Some of these
  unprioritized weaknesses require immediate remediation. For example, one of
                                                                                        12


   the pending corrections is to enhance password security protection in a system
   that contains privacy information to reduce the risk of unauthorized access.

Planned remediation of more than 300 security deficiencies has been delayed for
more than 6 months past scheduled completion dates, including items deemed to
have a severe impact on the integrity of program operations, such as causing
adverse effects on communications among air traffic control facilities (see
Table 3).

           Table 3. Remediation of Security Weaknesses

            Status                                        Remediation Items
             Prioritized
               Overdue*                      309
               Current                       896                    1,205
             Not Prioritized                                        1,620
               Total                                                2,825
            *   Of the 309 overdue items, 7 were rated with high severity, 56 medium,
                and 246 low.


   We understand that not everything can be tackled at once, especially in today’s
   tight budget environment. Management has to make realistic decisions,
   balancing system importance, risk, and costs in order to prioritize remediation
   efforts. Yet management cannot effectively prioritize corrective actions if it
   lacks information on the associated risks and costs.

• The system used to track known security weaknesses lacks security protection
  itself. Currently, OA users not only can read but also can change the
  information entered by other users. This is a clear violation of the
  Department’s policy for granting access to people on a need-to-know basis,
  especially for sensitive information such as air traffic control system
  weaknesses. Further, there is no management audit trail logging all changes
  made to the system to ensure accountability.

Network Security
DOT maintains over 400 public web sites to provide Internet services to the
public, and tens of thousands of computers on its private networks process
sensitive information. Together, they form the IT infrastructure to support DOT
missions. DOT has made significant strides in securing this infrastructure since
we started performing annual computer security audits in FY 2001. The most
noteworthy accomplishments include strengthening access security controls at the
Internet connection points (the “front doors”) and other network entry points (the
“back doors”), establishing security incident-response centers, and regularly
                                                                                          13


checking for potential vulnerabilities in network computers. Last year, we also
reported that DOT started developing security configuration policies for
commonly used software.

This year, we found that the Department needs to enforce implementation of the
security configuration policies, ensure that computer vulnerabilities are corrected
in a timely manner, and complete deployment of the intrusion-detection system at
one Internet connection point.


Security Configuration Policy Needs To Be Enhanced and Enforced
Configuration management controls need enhancement and enforcement. Proper
configuration is key to preventing computer vulnerabilities. FISMA requires each
agency to develop specific IT security configuration requirements that meet its
needs and to implement the requirements. Last year, we reported that the CIO
Office issued baseline security standards for configuring computers using the
following five software packages: server-based Windows, Linux, Solaris, Cisco
(router), and wireless devices such as personal digital assistants. OAs were
required to configure their computers in accordance with these standards.

However, there is little assurance that these security standards have been
implemented due to the lack of enforcement. In June 2005, the CIO Office asked
OAs to provide information on their implementation status. Only 4 of the 12 OAs
provided statistics on their implementation efforts (see Table 4).


     Table 4. Implementation of Security Configuration Policy
 Operating Administration                  Windows Servers   Cisco Router   Solaris   Linux
 Federal Highway Administration                 95%              46%          93%      n/a*
 Federal Motor Carrier Safety                  100%              85%            n/a     n/a
 Administration
 Research and Innovative                            92%          75%          94%     100%
 Technology Administration
 Federal Railroad Administration                    29%          49%           n/a     17%
* n/a: not applicable because the technology is not used.


Also, two important configuration standards, the Oracle database and the web
application, are still not final and are both widely used in DOT. The Oracle
database is used in key application systems, such as the Departmental accounting
system (Delphi), the Federal Highway Administration’s grants management
system, FAA’s labor distribution system, and the National Highway Traffic Safety
Administration’s defect investigation system. Web application software is used
                                                                                14


not only to program web sites but also to serve as the front-door interface to key
DOT systems. Vulnerabilities embedded in web application software could leave
DOT systems open to attack. In response to last year’s recommendations, the CIO
Office issued draft standards for secure configuration of the Oracle database on
September 27, 2004, and for web applications on September 29, 2004. However,
these standards are still not finalized, partially due to turnover of key security
personnel in the CIO Office.

The Department needs to immediately finalize the configuration standards for the
Oracle database and web applications and to develop enforcement mechanisms
ensuring that DOT computers are configured in accordance with security
standards.


Network Vulnerabilities Need To Be Checked and Corrected in a Timely
Manner
DOT still faces a challenge in patching of its computer systems in a timely
manner. Our recent audit of the Federal Railroad Administration systems network
found many vulnerabilities, some of which had been previously reported but
remained uncorrected. These weaknesses enabled us to gain total control (root-
level access) over a critical file server, desktop computers, and a network switch.
From these computers, we accessed sensitive information that enabled us to gain
unauthorized entry from the Internet and obtain sensitive information such as draft
safety inspection reports and proposed penalties for safety violations. Given the
interconnectivity among all DOT networks, this security lapse also puts other
Departmental systems at risk. Federal Railroad Administration management is
taking action to eliminate all critical vulnerabilities.

The recent Zotob worm attack also showed the need for more timely installation of
software patches. More than 700 DOT computers were infected by this worm.
The attack occurred 4 days after Microsoft Corporation released a patch to fix a
security flaw in its Windows operating system. In DOT, 7 of 12 OAs were
infected because they did not install the patch quickly, resulting in operational
disruption.

The Zotob worm was first introduced into DOT’s network by a contractor who
connected his laptop computer to DOT’s network, which was a violation of
Departmental policy. Nonetheless, this incident highlighted an emerging
challenge facing DOT and other Federal agencies concerning security checks on
computers used by the telecommuting workforce. For example, about half of all
Federal Railroad Administration computers are not subject to routine vulnerability
checks because they are being used by employees who telecommute (or travel
around the country) for the majority of the year. These unchecked computers, if
                                                                                                                       15


infected with hostile software, could become conduits for spreading problems to
the rest of the networks. DOT needs to develop a mechanism to ensure that all
computers used by telecommuting employees are periodically checked for
vulnerabilities and patched with the latest security upgrades.


Intrusion-Detection Capability Needs To Be Improved
Intrusion-detection systems are software or hardware systems used to help detect
either the unauthorized use of or attack upon a computer or network. This security
is particularly important to organizations with direct connections to the Internet
because of relentless attacks by hackers worldwide. The Federal Railroad
Administration is one of the OAs with direct connections to the Internet.
However, it has not fully deployed an intrusion-detection system, despite years of
effort. Until the intrusion-detection system is fully implemented, DOT cannot
effectively protect its computers in today’s volatile network environment.


System Continuity and Contingency Planning
Contingency plans allow business operations that depend on information systems
to continue operating during system service disruptions. In FY 2003, we reported
inadequate contingency planning for DOT systems (only 26 percent of systems
had such plans) and serious concerns about losing both primary and recovery
processing sites for critical systems because they were close to each other. During
FY 2004, DOT emphasized this area and reported a significant increase in systems
with contingency plans. However, this year we found insufficient testing of
contingency plans and continued problems with recovery site locations. The
recent events along the Gulf Coast underscore the importance of having adequate
geographic distance between primary and recovery sites for continuity of
operations.


Contingency Plans Need To Be Tested
OA management is required to assess the consequences of the loss of availability
of its computer system services. If deemed to have a severe or catastrophic
adverse effect on organizational operations, organizational assets, or individuals,
management should rate the potential impact “high.”9 This year we reviewed a
sample of 20 systems with different levels of impact—55 high, 8 medium, and 7
7 low. Overall, almost half had no contingency plan or recovery site identified,


9
    A loss of availability is the disruption of access to or use of information or an information system (FIPS Publication
    199).
                                                                                  16


and 85 percent had not tested their contingency plans within the previous year (see
Table 5).


              Table 5. Contingency Planning and Testing

       Availability Rating          High       Medium         Low         Total
  Number of Systems Reviewed          5            8           7             20
  No Contingency Plan                 1            4           4              9
  No Recovery Sites Identified        1            4           5             10
  No Current Testing of               4            8           5             17
  Contingency Plan


In these times of budgetary constraints, it is important to prioritize which
programs and systems are most critical and therefore most in need of continuity of
operations during an emergency. For the five high-impact systems, only one
system has met all criteria (i.e., having a contingency plan, having a recovery site,
and having the plan tested): the National Driver Registry, managed by the
National Highway Traffic Safety Administration. The remaining four high-impact
systems are all FAA systems. One system that is used to record airman medical
examination information did not even have a contingency plan. No contingency
plan testing had been performed for any of these systems, including the ones
critical to time-sensitive air traffic control services.


Recovery Sites Need To Be Further Separated From Primary Sites
As we reported in both FY 2003 and FY 2004, some OA recovery sites are too
close to the primary processing sites for their computer systems, thus risking loss
of processing capability from both sites to the same disaster. The CIO Office
agreed to develop Departmental policy establishing the minimum distance
requirement between the two processing sites. However, after 2 years, the policy
has yet to be developed. None of the OAs has relocated its recovery site to reduce
the exposure. For example, the geographic distances between the two sites are
still 10 miles for highway systems, 15 miles for transportation statistics systems,
and 25 miles for transit systems. As we learned during the 2005 hurricane season,
disasters can cover a very wide area.

DOT needs to develop and test contingency plans for the most critical systems,
develop a policy on minimum geographical distance between primary and
recovery sites, and enforce this policy.
                                                                                                                    17


Protecting the Nation’s Critical Infrastructure
The President has designated the air traffic control system part of the nation’s
critical infrastructure due to the important role commercial aviation plays in
fostering and sustaining the national economy and ensuring the safety and
mobility of citizens. FAA is responsible for ensuring that air traffic control
facilities, systems, and operations are protected from disruption from man-made or
natural events and are able to resume services in a timely manner if disrupted.

Last year, we reported that security certification reviews of en route10 air traffic
control computer systems needed to be enhanced. In particular, while officials had
certified that en route systems were adequately secured, the reviews did not meet
NIST requirements because they were limited to developmental systems at FAA’s
technical center computer laboratory. FAA committed to completing security
reviews of all operational air traffic control systems—at en route, approach
control, and airport terminal facilities—within 3 years. It also agreed to identify a
cost-effective contingency plan to restore essential air service should a prolonged
disruption affect service at an en route facility. Implementing the selected plan is
a complicated endeavor but critical to supplementing FAA’s current business
continuity strategy, one that has worked well in the past in dealing with temporary,
less severe service disruptions.

Yet FAA did not start aggressive actions to correct air traffic control security
deficiencies previously identified until April of this year, after the DOT Inspector
General issued a letter to the Federal Aviation Administrator expressing concerns
over the slow pace of FAA’s corrective actions. Progress improved, but since this
effort only began in April, overall progress during FY 2005 to better secure air
traffic control system operations was insufficient.


Security Certification Reviews Need To Be Expanded
During FY 2005, FAA officials reported that they had conducted security reviews
at all en route centers; however, these “reviews” were incomplete. First, FAA
conducted site reviews to gather system information only—which has not yet been
analyzed—and only on 16 of the 30 high-risk systems used to control air traffic at
its en route centers. Since information was collected on only half of the systems,
other critical systems, such as the system that routes critical weather and flight
plan data to all en route centers, were not reviewed. It plans to analyze the data
during FY 2006 to determine what remediation work will need to be done.



10
     En route centers control traffic over 18,000 feet (high-altitude), approach control centers control traffic between
     4,000 and 18,000 feet (mid-level), and airport control towers control landings and takeoffs.
                                                                                  18


Second, no independent testing was performed at operational sites. Such on-site
testing is required to meet minimum Government security standards and is critical
for these systems. Our prior work identified different system configurations
between the baseline (development) system and the operational systems.
Independent testing may be the only way to detect such differences and assess the
security implications.

FAA also needs to develop a schedule and commit resources to conducting
security reviews of operational systems used at other air traffic control facilities.
This includes systems used to monitor mid-level air traffic at approach control
centers and those used to direct landings and takeoffs at airport control towers. It
has previously committed to completing these reviews in 2006 and 2007,
respectively.


The Selected Contingency Plan Needs To Be Implemented
Operational disruptions at any air traffic control facility have the potential to
create significant delays and interruption of air service. Prolonged outages at
major facilities, such as en route centers, could severely disrupt air traffic in
cascading waves across the country, causing significant economic losses and
subjecting travelers to widespread delays and inconvenience. FAA’s current
business continuity strategy has worked well in the past in dealing with temporary
service disruptions, such as power outages. This year, FAA has selected a cost-
effective alterative to restore essential air traffic service in case of prolonged
disruption at an en route facility, but FAA is years away from implementing it.

Implementing this alternative will be a complicated endeavor. It will require
restoring computer system operations at recovery centers, rerouting radar signals,
and retraining or relocating air traffic controllers familiar with the affected
airspace. We recognize that FAA faces critical decisions in balancing its priorities
in today’s tight budget environment with declining aviation trust fund revenues.
Yet items requiring immediate attention should get that attention. FAA needs to
start testing recovery of computer operations at back-up en route centers and
aggressively pursue the plan to identify air traffic controllers to operate the
reconfigured airspace.


Management Controls
With an annual IT budget of about $2.7 billion, DOT is responsible for one of the
largest IT investment portfolios among civilian agencies. As such, it needs to
have processes in place that provide reasonable assurance that its major IT projects
are adequately justified and monitored to ensure that they deliver promised
benefits approximately on time and within budget. The Departmental Investment
                                                                                  19


Review Board is charged with exercising executive-level oversight to provide that
assurance to the Secretary. Last year, we reported that the Board needed to
perform more substantive and proactive reviews of IT investments managed by
individual OAs. The Board has improved its reviews of investments by most OAs
but has been unable so far to have a significant impact on FAA’s air traffic control
modernization projects, which are the most complex and challenging systems and
account for over 80 percent of the Department’s IT budget.

The Investment Review Board’s Role Needs To Be Clarified
This year, the Board reviewed investment projects managed by various OAs,
including FAA. While projects managed by most OAs have benefited from the
Board’s oversight, the Board has had little positive impact on complicated air
traffic control projects, which are still experiencing significant cost increases and
schedule delays. We reviewed 16 major FAA acquisitions and found that 9 of
them had experienced schedule delays of from 2 to 12 years, and 11 had
experienced cost growth of about $5.6 billion (from $8.9 billion to $14.5 billion).
The bulk of the cost growth represented by the $5.6 billion occurred before the
establishment of the new Air Traffic Organization and had been building for some
time without being recognized. Some of the major investment projects have
experienced persistent cost and schedule problems, such as the Wide Area
Augmentation System and the Standard Terminal Automation Replacement
System.

Nine years after Congress passed acquisition reform for FAA, exempting it from
compliance with Federal acquisition regulations, air traffic control modernization
projects are still experiencing performance problems, along with the cost increases
and schedule delays. Further, FAA’s acquisition process has stayed on the
Government Accountability Office’s high-risk list since 1995. Meanwhile, FAA
continues to initiate new, costly, and complex IT modernization projects. This
year, two new multibillion-dollar FAA investment projects—FAA
Telecommunications Infrastructure and En Route Automation Modernization—
went forward to OMB without reliable cost, schedule, and other project
information. OMB rejected the budget submissions and asked the Board to
reexamine business cases for these investment projects.

We are concerned that the Board’s review of major FAA IT investment projects is
not providing value-added services as intended. Consequently, the Board’s role
risks becoming a paperwork exercise with little substantive value added to help the
Secretary. There are two basic reasons for this.

• First, there is a lack of clarity about the Board’s role in reviewing major FAA
  investment projects. The Clinger-Cohen Act of 1996 requires the Secretary to
  implement a process for “maximizing the value and assessing and managing
                                                                                    20


   the risks of the information technology acquisitions of the executive agency.”
   The Board was created as part of this process and is tasked with advising the
   Secretary regarding whether to continue, modify, or terminate major IT
   investments in the Department. However, FAA has frequently cited its
   independent acquisition authority, based on provisions in the Department’s
   Appropriations Act for Fiscal Year 1996, to argue that the Board should play
   only a limited role in overseeing FAA investments. The provision in the
   Appropriations Act exempted FAA from compliance with the Federal
   acquisition regulations and key Federal procurement laws to help make the
   acquisition process more timely and cost-effective.

   The issue that needs to be resolved is whether FAA’s exemption from
   compliance with the Federal procurement regulations also applies to the
   investment management oversight requirements of the Clinger-Cohen Act.
   Until this issue is resolved, it is our opinion that the Board’s continued
   “review” of FAA’s multibillion-dollar investment projects will not provide
   reasonable assurance to the Secretary that FAA’s major IT investments are
   adequately justified and monitored to ensure that they deliver promised
   benefits approximately on time and within budget. This will, in turn, impede
   the Secretary’s ability to fulfill his responsibilities under the Clinger-Cohen
   Act.

• Second, to be effective, the Board needs to perform more substantive, in-depth,
  analytical reviews of progress, problems, and risks associated with these
  complicated investments. The current level of support available to the Board is
  not sufficient to allow its members to make responsible decisions about these
  investments. The Board relies on the “prep group” process, during which OA
  representatives perform a cursory review of each other’s investment projects.
  This “prep group” is led by an Associate Chief Information Officer with the
  support of one mid-level staff person, who came on board only 4 months ago.
  Obtaining adequate support to research potential shortfalls in project cost,
  schedule, and performance is essential if the Board is to perform oversight that
  will maximize the value and to manage the risks of major IT investments in the
  Department.

More Focus Is Needed To Implement Management Tools To Track
Progress of Major Systems
Last year, we recommended that the CIO Office develop a better process to select
investment projects for the Board’s review. During FY 2005, the Department
started using a sophisticated tool to identify at-risk projects for the Board’s review:
Earned Value Management (EVM). This approach measures progress against
approved cost and schedule baselines. Through these measures, management can
spot early projects that are falling behind schedule or are running over cost, before
                                                                                21


they become “troubled” (experiencing a greater-than-10-percent variance from the
baseline).

However, EVM usage at DOT is still in its infancy and is not yet being applied
correctly across the Department. OMB recently issued a memorandum to all
agencies, entitled “Improving IT Project Planning and Execution,” which outlines
the need for further improvement Governmentwide in the use of EVM and listed
32 criteria developed by the American National Standards Institute. A recent
study conducted by FAA on 19 major acquisition projects indicated that EVM
reporting for over 60 percent of the projects did not meet OMB criteria.

It is also important that the OAs apply EVM measurements based on complete and
accurate information. Otherwise, the tool will produce misleading results. For
example, when evaluating whether a multibillion-dollar telecommunications
project was proceeding according to schedule, FAA used “site acceptance”—how
many sites had equipment installed and tested—to measure progress. However,
site acceptance was only an interim step toward the ultimate goal of switching
communications services to the new network. By using site acceptance as the
measure, management was led to believe that the project was closer to completion
than it actually was. DOT needs to ensure that OAs implement EVM management
tools effectively by, for example, making sure that OAs provide accurate and
complete information for EVM measurement. EVM training will also need to be a
key focus in the coming year.


RECOMMENDATIONS
In order to strengthen the Department’s information security posture and reduce its
vulnerability to economic or operational harm, we recommend that the
Department CIO:

Enhance computer systems security reviews by:

   1. Requiring OAs to submit planned schedules for completing systems
      security (re)certification reviews throughout FY 2006 and conduct
      quarterly reviews of the progress made against the plans.

   2. Increasing sample checks of OAs’ systems security reviews to ensure
      compliance with minimum Government standards, including performing
      recertification reviews of any systems that have experienced major
      changes.
                                                                                 22


   3. Ensuring that OAs assess the severity of identified security weaknesses,
      estimate correction costs, and prioritize the remediation effort accordingly
      and ensuring that OAs correct deficiencies in a timely manner.

   4. Enhancing security of the DOT system that tracks the plan of action and
      milestones by limiting access to those with a need to know and developing
      management audit trails to track changes made in the system.

Enhance DOT network security by:

   5. Finalizing Departmental security standards for configuring the Oracle
      database and web application software on DOT systems and validating that
      DOT computers are configured in accordance with established security
      standards.

   6. Verifying that OAs are correcting computer vulnerabilities and installing
      manufacturers’ software patches in a timely manner.

   7. Developing a mechanism to ensure that all computers used by
      telecommuting employees are periodically checked for vulnerabilities and
      patched with the latest security upgrades.

   8. Working with the Federal Railroad Administration to fully implement an
      intrusion-detection system on its network.

Enhance the DOT continuity of operations plan by:

   9. Requiring the OAs to prepare and test contingency plans and to provide
      evidence that the contingency plan for critical information systems has
      been successfully tested.

   10. Developing Departmental policy establishing the minimum acceptable
       geographical distance between the primary and recovery processing sites
       for information systems, and setting a target completion date for the OAs
       to comply with the policy.

Enhance critical infrastructure protection by:

   11. Directing FAA to complete, by the end of FY 2006, security certification
       reviews that meet NIST standards for operational air traffic control
       systems at en route centers and to complete security reviews at other
       operational sites (e.g., approach control centers and airport control towers)
       by the end of FY 2007, as FAA has committed to doing.
                                                                              23


   12. Ensuring that FAA continues to implement its en route continuity of
       operations plan by testing recovery of computer operations at back-up
       en route centers and identifying air traffic controllers to operate the
       reconfigured airspace during FY 2006.

   13. Periodically reviewing the progress and quality of FAA’s certification
       reviews and en route continuity of operations plan implementation.

Enhance IT investment management controls by:

   14. Clarifying, in consultation with the Secretary, the Departmental
       Investment Review Board’s role in performing investment management
       oversight of FAA’s major investments.

   15. Identifying resources and processes to better support the Board by
       performing more substantive, in-depth, analytical reviews of progress,
       problems, and risks associated with major FAA investments.

   16. Ensuring that the OAs receive training in using the EVM management tool
       and that they use the tool effectively by including accurate and complete
       cost and schedule information.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
The CIO Office reviewed a draft of this report and provided oral comments. CIO
Office officials agreed with the report’s findings and recommendations and stated
that they will provide written comments describing the specific actions they will
take to implement the recommendations.


ACTIONS REQUIRED
In accordance with DOT Order 8000.1C, we would appreciate receiving your
written comments on this report within 30 calendar days. Please indicate the
specific actions taken or planned for each recommendation and a target date for
completion. You may provide alternative courses of action that you believe would
resolve the issues presented in this report.

We appreciate the courtesies and cooperation of the Office of the CIO and the
OAs’ representatives during this audit. If you have any questions concerning this
                                                                            24


report, please call me at (202) 366-1959 or Theodore Alves, Principal Assistant
Inspector General for Auditing and Evaluation, at (202) 366-1992.



                                      #

cc: Deputy Secretary
    Federal Aviation Administrator
    Martin Gertel, M-1
                Exhibit A. OIG Input to FISMA Report                                                                                                                                                                  25

                                                                                       Section C: Inspector General. Questions 1, 2, 3, 4, and 5.

                                                                                             Agency Name: Department of Transportation

                                                                                                            Question 1 and 2


1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an
agency. By FIPS 199 risk impact level (high, moderate, low, or not categorized) and by bureau, identify the number of systems reviewed in this evaluation for each classification below (a., b., and c.).


            To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
            1) Continue to use NIST Special Publication 800-26, or,
            2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53


            Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency, therefore, self reporting by contractors does not meet the
            requirements of law. Self reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.




2. For each part of this question, identify actual performance in FY 05 by risk impact level and bureau, in the format provided below. From the representative subset of systems evaluated, identify the number of systems
which have completed the following: have a current certification and accreditation , a contingency plan tested within the past year, and security controls tested within the past year.



                                                                                                Question 1                                                                               Question 2
                                                                       a.                           b.                           c.                             a.                        b.                              c.
                                                              FY 05 Agency Systems           FY 05 Contractor          FY 05 Total Number of          Number of systems         Number of systems for           Number of systems for
                                                                                                 Systems                      Systems               certified and accredited    which security controls        which contingency plans
                                                                                                                                                                                 have been tested and            have been tested in
                                                                                                                                                                               evaluated in the last year     accordance with policy and
                                                                                                                                                                                                                      guidance



                                    FIPS 199 Risk Impact        Total        Number         Total     Number                         Number          Total       Percent of       Total       Percent of
Bureau Name                                Level               Number       Reviewed       Number    Reviewed Total Number          Reviewed        Number         Total         Number         Total         Total Number Percent of Total
FAA                                   High                             81              5          11         2          92                      7            5         71.4%              5          71.4%                               0.0%
                                      Moderate                        126              3           8                   134                      3            2         66.7%              3         100.0%                               0.0%
                                      Low                              42                          3                    45                      0
                                      Not Categorized                                                                    0                      0                                                                        0
                                   Sub-total                         249               8          22         2         271                     10            7         70.0%              8           80.0%              0               0.0%
FHWA                                  High                             7                                                 7                      0
                                      Moderate                        13                           1                    14                      0
                                      Low                              2                           1                     3                      0
                                      Not Categorized                                  1                                 0                      1            1        100.0%              0           0.0%               1          100.0%
                                   Sub-total                           22              1           2         0          24                      1            1        100.0%              0           0.0%               1          100.0%
FMCSA                                 High                                                                               0                      0
                                      Moderate                         13                          3                    16                      0
                                      Low                               3                                                3                      0
                                      Not Categorized                                  1                                 0                      1            1        100.0%              1         100.0%               0               0.0%
                                   Sub-total                           16              1           3         0          19                      1            1        100.0%              1         100.0%               0               0.0%
FRA                                   High                                                                               0                      0
                                      Moderate                         18              1           3                    21                      1            1        100.0%                          0.0%                               0.0%
                                      Low                                                                                0                      0
                                      Not Categorized                                                                    0                      0                                         0                              0
                                   Sub-total                           18              1           3         0          21                      1            1        100.0%              0           0.0%               0               0.0%
FTA                                   High                                                                               0                      0
                                      Moderate                          8                          1                     9                      0
                                      Low                                                                                0                      0
                                      Not Categorized                                                        1           0                      1            1        100.0%              1         100.0%               0               0.0%
                                   Sub-total                            8              0           1         1           9                      1            1        100.0%              1         100.0%               0               0.0%
MARAD                                 High                                                                               0                      0
                                      Moderate                          6                                                6                      0
                                      Low                                                                                0                      0
                                      Not Categorized                   7              1                                 7                      1            1        100.0%              0           0.0%               0               0.0%
                                   Sub-total                           13              1           0         0          13                      1            1        100.0%              0           0.0%               0               0.0%
NHSTA                                 High                                                                               0                      0
                                      Moderate                          6                          1                     7                      0
                                      Low                              10                          1                    11                      0
                                      Not Categorized                                                        1           0                      1            1        100.0%              1         100.0%               1          100.0%
                                   Sub-total                           16              0           2         1          18                      1            1        100.0%              1         100.0%               1          100.0%
OST                                   High                              6                                                6                      0
                                      Moderate                         18                          3                    21                      0
                                      Low                              20                          3                    23                      0
                                      Not Categorized                   2              2                                 2                      2            2        100.0%              1           50.0%              1           50.0%
                                   Sub-total                           46              2           6         0          52                      2            2        100.0%              1           50.0%              1           50.0%
PHMSA                                 High                              1                                                1                      0
                                      Moderate                          1              1           1                     2                      1            1        100.0%                          0.0%                               0.0%
                                      Low                               1                                                1                      0
                                      Not Categorized                                                                    0                      0                                         0                              0
                                   Sub-total                            3              1           1         0           4                      1            1        100.0%              0           0.0%               0               0.0%
RITA                                  High                                                                               0                      0
                                      Moderate                         16                                               16                      0
                                      Low                               1                                                1                      0
                                      Not Categorized                                  1                                 0                      1            1        100.0%              1         100.0%               0               0.0%
                                   Sub-total                           17              1           0         0          17                      1            1        100.0%              1         100.0%               0               0.0%
SLSDC                                 High                                                                               0                      0
                                      Moderate                                                                           0                      0
                                      Low                               1                                                1                      0
                                      Not Categorized                                                                    0                      0
                                   Sub-total                            1              0           0         0           1                      0
STB                                   High                                                                               0                      0
                                      Moderate                          2                                                2                      0
                                      Low                                                                                0                      0
                                      Not Categorized                                                                    0                      0
                                   Sub-total                            2              0           0         0           2                      0
Agency Totals                         High                             95              5           11             2           106              7             5         71.4%              5           71.4%              0               0.0%
                                      Moderate                       227               5           21             0           248              5             4         80.0%              3           60.0%              0               0.0%
                                      Low                             80               0            8             0            88              0             0                            0                              0
                                      Not Categorized                  9               6            0             2             9              8             8        100.0%              5           62.5%              3           37.5%
                                   Total                             411              16           40             4           451              20           17         85.0%             13           65.0%              3           15.0%


                Exhibit A. OIG Input to FISMA Report
                                                                                                                                                                                                                     26
                                                                                                                  Question 3

In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.

                                    The agency performs oversight and evaluation to ensure information systems used or operated by a contractor of the
                                    agency or other organization on behalf of the agency meet the requirements of FISMA, OMB policy and NIST guidelines,
                                    national security policy, and agency policy. Self-reporting of NIST Special Publication 800-26 requirements by a contracto
                                    or other organization is not sufficient, however, self-reporting by another Federal agency may be sufficient.

                                    Response Categories:
                 3.a.                                                                                                                                             - Almost Always, for example, approximately 96-100% of the time
                                         - Rarely, for example, approximately 0-50% of the time
                                         - Sometimes, for example, approximately 51-70% of the time
                                         - Frequently, for example, approximately 71-80% of the time
                                         - Mostly, for example, approximately 81-95% of the time
                                         - Almost Always, for example, approximately 96-100% of the time


                                    The agency has developed an inventory of major information systems (including major national security systems) operated
                                    by or under the control of such agency, including an identification of the interfaces between each such system and all othe
                                    systems or networks, including those not operated by or under the control of the agency.

                                    Response Categories:
                3.b.                     - Approximately 0-50% complete                                                                                                - Approximately 96-100% complete
                                         - Approximately 51-70% complete
                                         - Approximately 71-80% complete
                                         - Approximately 81-95% complete
                                         - Approximately 96-100% complete



                 3.c.               The OIG generally agrees with the CIO on the number of agency owned systems.                                                                                    Yes

                                    The OIG generally agrees with the CIO on the number of information systems
                3.d.                used or operated by a contractor of the agency or other organization on behalf of        the agency.                                                            Yes


                 3.e.               The agency inventory is maintained and updated at least annually.                                                                                               Yes


                 3.f.               The agency has completed system e-authentication risk assessments.                                                                                               no

                                                                                                                  Question 4

Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency wide plan of action and milestone (POA&M) process. Evaluate the degree to which the
following statements reflect the status in your agency by choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:

      -   Rarely, for example, approximately 0-50% of the time
      -   Sometimes, for example, approximately 51-70% of the time
      -   Frequently, for example, approximately 71-80% of the time
      -   Mostly, for example, approximately 81-95% of the time
      -   Almost Always, for example, approximately 96-100% of the time


                                    The POA&M is an agency wide process, incorporating all known IT security weaknesses associated with information
                 4.a.                                                                                                                                             - Mostly, for example, approximately 81-95% of the time
                                    systems used or operated by the agency or by a contractor of the agency or other organization on behalf of the agency.


                                    When an IT security weakness is identified, program officials (including CIOs, if they own or operate a system) develop,
                4.b.                                                                                                                                              - Rarely, for example, approximately 0-50% of the time"
                                    implement, and manage POA&Ms for their system(s).


                                    Program officials, including contractors, report to the CIO on a regular basis (at least quarterly) on their remediation
                 4.c.                                                                                                                                             - Almost Always, for example, approximately 96-100% of the time
                                    progress.


                4.d.                CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.                                  - Rarely, for example, approximately 0-50% of the time"



                 4.e.               OIG findings are incorporated into the POA&M process.                                                                         - Almost Always, for example, approximately 96-100% of the time


                                    POA&M process prioritizes IT security weaknesses to help ensure significant IT security weaknesses are addressed in a
                 4.f.                                                                                                                                             - Rarely, for example, approximately 0-50% of the time"
                                    timely manner and receive appropriate resources

Comments: The Department needed to strengthen its security remediation activities to ensure that weaknesses are being corrected in a timely manner and that the most critical weaknesses are corrected first.
Currently, the Department has about 3,000 weaknesses pending remediation. However, management could not effectively prioritize their correction because 1,620 weaknesses (more than half of the items in the
database) are missing information such as the severity of, and costs to correct, the weakness. However, some of these weaknesses clearly require immediate remediation.


                                                                                                                  Question 5

OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative assessment of the agency’s certification and accreditation process, including adherence to existing policy, guidance, and
standards. Agencies shall follow NIST Special Publication 800-37, “Guide for the Security Certification and Accreditation of Federal Information Systems” (May, 2004) for certification and accreditation work initiated after May, 2004. Thi
includes use of the FIPS 199 (February, 2004), “Standards for Security Categorization of Federal Information and Information Systems,” to determine an impact level, as well as associated NIST documents used as guidance for
completing risk assessments and security plans .
                                    Assess the overall quality of the Department's certification and accreditation process

                                    Response Categories:
                                         - Excellent
                                         - Good                                                                                                                   - Satisfactory
                                         - Satisfactory
                                         - Poor
                                         - Failing

Comments: The quality of the security certification reviews has improved during FY 2005. This year our sample review of 20 systems security certification reviews, 6 of which were completed during FY 2005, identified
fewer deficiencies in the newer certification reviews. Nonetheless, improving the quality of the certification reviews will be a major challenge to the Department when re-certifying more than 300 systems security in the
next 2 years.




                  Exhibit A. OIG Input to FISMA Report
                                                                                                                                                                   27
                                                                 Section B: Inspector General. Question 6, 7, 8, and 9.

                                                                                       Agency Name:


                                                                                        Question 6

                        Is there an agency wide security configuration policy?
       6.a.                                                                                                                                        Yes
                        Yes or No.

                        Comments:



                        Configuration guides are available for the products listed below. Identify which software is addressed in the agency wide security configuration policy.
       6.b.             Indicate whether or not any agency systems run the software. In addition, approximate the extent of implementation of the security configuration policy
                        on the systems running the software.




                                                                                                                       Approximate the extent of implementation of the security
                                                                                                                       configuration policy on the systems running the software.

                                                                                                                       Response choices include:
                                                                                                                       - Rarely, or, on approximately 0-50% of the
                                                                                                                         systems running this software
           Product                                                                                                     - Sometimes, or on approximately 51-70% of
                                                                                                                         the systems running this software
                                                                                                                       - Frequently, or on approximately 71-80% of
                                                                        Addressed in
                                                                                                                         the systems running this software
                                                                     agencywide policy?      Do any agency systems     - Mostly, or on approximately 81-95% of the
                                                                                               run this software?        systems running this software
                                                                                                                       - Almost Always, or on approximately 96-100% of the
                                                                            Yes, No,                                   systems running this software
                                                                             or N/A.                  Yes or No.

              Windows XP Professional
                                                                                 Yes                     Yes
              Windows NT
                                                                                 Yes                     Yes
                                                                                                                             - Frequently, or on approximately 71-80% of the systems
              Windows 2000 Professional
                                                                                 Yes                     Yes           running this software
                                                                                                                             - Frequently, or on approximately 71-80% of the systems
              Windows 2000 Server
                                                                                 Yes                     Yes           running this software
              Windows 2003 Server
                                                                                 No                      Yes
                                                                                                                             - Frequently, or on approximately 71-80% of the systems
              Solaris
                                                                                 Yes                     Yes           running this software
              HP-UX
                                                                                 No                      Yes
                                                                                                                             - Frequently, or on approximately 71-80% of the systems
              Linux
                                                                                 Yes                     Yes           running this software
                                                                                                                             - Sometimes, or on approximately 51-70% of the
              Cisco Router IOS
                                                                                 Yes                     Yes           systems running this software
              Oracle
                                                                                 No                      Yes

              Other. Specify: Wireless
                                                                                 Yes                     Yes
Comments: DOT has issued 5 configuration standards (server-based Windows, Linux, Solaris, Cisco and Wireless PDA). However, there is little assurance
for the implementation of these security standards. In June 2005, the CIO office asked OAs to provide implementation status on these standards. Only 4 of
the 12 OAs provided statistics on their implementation effort. Based on our review, the statistics provided by 4 OAs appeared to be reasonable and were
used to form our answers above.


                                                                                        Question 7


Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include comments in the area provided below.

                        The agency follows documented policies and procedures for identifying and reporting
       7.a.             incidents internally.                                                                                                      Yes
                        Yes or No.
                        The agency follows documented policies and procedures for external reporting to law
       7.b.             enforcement authorities.                                                                                                   Yes
                        Yes or No.
                        The agency follows defined procedures for reporting to the United States Computer
       7.c.             Emergency Readiness Team (US-CERT). http://www.us-cert.gov                                                                 Yes
                        Yes or No.
Comments:



           Exhibit A. OIG Input to FISMA Report
                                                                                                                                     28
                                                                Question 8

       Has the agency ensured security training and awareness of all employees, including
       contractors and those employees with significant IT security responsibilities?

       Response Choices include:
       - Rarely, or, approximately 0-50% of employees have sufficient training
                                                                                              - Sometimes, or approximately 51-70% of employees have
8       - Sometimes, or approximately 51-70% of employees have sufficient training
                                                                                             sufficient training
        - Frequently, or approximately 71-80% of employees have sufficient training
        - Mostly, or approximately 81-95% of employees have sufficient training
        - Almost Always, or approximately 96-100% of employees have sufficient training




                                                                Question 9



       Does the agency explain policies regarding peer-to-peer file sharing in IT security
9      awareness training, ethics training, or any other agency wide training?                                           No
       Yes or No.




    Exhibit A. OIG Input to FISMA Report
                                                                              29




EXHIBIT B. SCOPE AND METHODOLOGY
During FY 2005, we fulfilled the requirements under FISMA by reviewing DOT’s
major financial systems, FAA air traffic control systems, the Federal Railroad
Administration systems network, and the implementation of IT capital planning
and investment control procedures. In addition, we sampled 20 systems that had
undergone security certification reviews to determine whether the OAs had
complied with Government and DOT standards in assessing system risks,
identifying security requirements, testing security controls, and accrediting
systems to support business operations.

We assessed DOT’s progress in correcting weaknesses identified in last year’s
FISMA review. We also provided input to DOT’s FISMA report by answering
questions specified by the Office of Management and Budget.

We used the audit methodologies recommended by the Government
Accountability Office, and guidelines issued by other Government authorities such
as the NIST. We used commercial scanning software to assess network
vulnerabilities.

We performed our work throughout FY 2005, and focused on reviewing FISMA
reporting between July 2005 and September 2005 at DOT and OAs’ Headquarters
located in Washington, DC. This performance audit was conducted in accordance
with Generally Accepted Government Auditing Standards prescribed by the
Comptroller General of the United States and included such tests as we considered
necessary to detect fraud.

We previously issued four audit reports on DOT’s information security program in
response to the legislative mandate of the FISMA, formerly the Government
Information Security Reform Act (GISRA). They are: “DOT Information
Security Program,” Report Number FI-2005-001, October 1, 2004; “DOT
Information Security Program,” Report Number FI-2003-086, September 25,
2003; “DOT Information Security Program,” Report Number FI-2002-115,
September 27, 2002; and “DOT Information Security Program,” Report Number
FI-2001-090, September 7, 2001.




Exhibit B. Scope and Methodology
                                                                           30




EXHIBIT C. DOT OPERATING ADMINISTRATIONS AND SYSTEM
INVENTORY COUNTS


Operating Administration                      Acronym   FY 2004   FY 2005

Federal Aviation Administration               FAA          285       271

Federal Highway Administration                FHWA          24        24

Federal Motor Carrier Safety Administration   FMCSA         19        19

Federal Railroad Administration               FRA           22        21

Federal Transit Administration                FTA            9         9

Maritime Administration                       MARAD         12        13

National Highway Traffic Safety               NHTSA         38        18
Administration

Office of the Secretary                       OST           54        52

Pipeline and Hazardous Materials Safety       PHMSA          3         4
Administration

Research and Innovative Technology            RITA          16        17
Administration

Saint Lawrence Seaway Development             SLSDC          1         1
Corporation

Surface Transportation Board                  STB            2         2

 Total Systems                                             485       451




Exhibit C. DOT Operating Administrations and System Inventory
Counts
                                                                         31


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                   Title

Rebecca C. Leng                        Assistant Inspector General for
                                        Information Technology and
                                        Computer Security
Ed Densmore                            Program Director
Phil DeGonzague                        Project Manager
Nathan Custer                          Project Manager
Dr. Ping Z. Sun                        Project Manager
Lynn Dowds                             Senior Auditor
Tim Roberts                            Senior Auditor
John Johnson                           Senior Information Technology
                                       Specialist
Mitchell Balakit                       Information Technology
                                       Specialist
Christopher Cullerot                   Information Technology
                                       Specialist
Atul Darooka                           Information Technology
                                       Specialist
Narja Hylton                           Auditor
Michael P. Fruitman                    Communications Adviser




Exhibit D. Major Contributions to This Report
